                                                     U.S. OFFICE OF PERSONNEL MANAGEMENT
                                                           OFFICE OF THE INSPECTOR GENERAL
                                                                            OFFICE OF AUDITS




                                   Final Audit Report

Subject:



  AUDIT OF THE INFORMATION TECHNOLOGY

          SECURITY CONTROLS OF THE

  U.S. OFFICE OF PERSONNEL MANAGEMENT'S
     Local Area Network / Wide Area Network
                 General Support System
                      FY 2012
                                           Report No. 4A-CI-OO-12-014


                                           Date:                 May 16, 2012




                                                          --CAUTION-­
This audit report has been distributed to Federal officials who are responsible for the administration of the audited program. This audit
report may contain proprietary data which is protected by Federal law (18 U.S.C. 1905). Therefore, while this audit report is available
under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
releasing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.
                                UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                                               Wash ingt on , DC 2041 5



  Office of the
Inspector General




                                                               Audit Report



                                      u.s. OFFICE OF PERSONNEL MANAGEMENT

                           AUDIT OF THE INFORMATION TECHNOLOGY SECURITY

                              CONTROLS OF THE U.S. OFFICE OF PERSONNEL

                           MANAGEMENT'S LOCAL AREA NETWORK / WIDE AREA

                                  NETWORK GENERAL SUPPORT SYSTEM

                                               FY 2012


                                                           WASHINGTON, D.C.





                    Report No. 4A-CI-OO-12-014                                              Date: May 16, 2012




                                                                                            Michael R. Esser
                                                                                            Assistant Inspector General
                                                                                              for Audits



                                                                 --CAUTION-­
       Thi s audit report has been distributed to Federal officials who are responsible for the administration of the audited program. Thi s audit
       report may contain proprietary data which is protected by Federal law (18 U.S.c. 1905). Therefore, while this audit report is available
       under the Freedom of Information Act and made available to the public on the OIG webpage, caution needs to be exercised before
       relea sing the report to the general public as it may contain proprietary information that was redacted from the publicly distributed copy.




        www.cprn .gov                                                                                                            www .usajobs.gov
                         UNITED STATES OFFICE OF PERSONNEL MANAGEMENT

                                              Washingt on , DC 20 415



   Office of the
Inspector General



                                         Executive Summary


                             u.S. OFFICE OF PERSONNEL MANAGEMENT


                       AUDIT OF THE INFORMATION TECHNOLOGY SECURITY

                          CONTROLS OF THE U.S. OFFICE OF PERSONNEL

                       MANAGEMENT'S LOCAL AREA NETWORK / WIDE AREA

                              NETWORK GENERAL SUPPORT SYSTEM

                                           FY 2012


                                            WASHINGTON, D.C.





                                      Report No. 4A-CI-OO-12-014


                                      Date:           May 16, 2012

       This final audit report discusses the results of our audit of the information technology security

       controls of the U.S. Office of Personnel Management's (OPM) Local Area Network / Wide Area

       Network General Support System (LAN/WAN). Our conclusions are detailed in the "Results"

       section of this report.


       Information System Security Plan (lSSP)

       The LAN/WAN ISSP contains the majority of critical elements required by National Institute of

       Standards and Technology (NIST) Special Publication (SP) 800-18 . However, it fails to

       document minor controls owned by the OCIO and fails to identify external interconnections.



       Certification and Accreditation Statement (C&A)

       A C&A of the LAN/WAN was completed in June 2010. We reviewed the certification package

       for all required elements of a C&A, and determined that the package contained all necessary

       documentation.





        www.opm .gov                                                                         www.usajobs.gov
Federal Information Processing Standards (FIPS) 199 Analysis
The security categorization of the LAN/WAN appears to be consistent with FIPS 199 and NIST
SP 800-60 requirements, and the OIG agrees with the categorization of “moderate.”

Risk Assessment
A risk assessment was conducted for the LAN/WAN in May 2010 that addresses all the required
elements outlined in relevant NIST guidance.

Independent Security Control Testing
A security control assessment was completed for the LAN/WAN as a part of the system’s C&A
process in May 2010.

Security Control Self-Assessment
The OCIO conducted a self-assessment of the security controls of the LAN/WAN in August
2011. However, a subset of controls for minor systems owned by the OCIO was not tested.

Contingency Planning and Contingency Plan Testing
A contingency plan was developed for the LAN/WAN that is in compliance with NIST SP 800-
34 and is tested annually. However, the security categorization documented in the contingency
plan is not consistent with the categorization in the FIPS 199 evaluation. The OCIO provided
evidence to remediate this issue with the response to the draft audit report.

Privacy Impact Assessment (PIA)
A privacy threshold analysis (PTA) was conducted for the LAN/WAN. However, no PTAs have
been conducted on the minor systems owned by the OCIO. Therefore, we do not know if a PIA
is needed.

Plan of Action and Milestones (POA&M) Process
The LAN/WAN POA&M follows the format of the OPM POA&M guide, and has been routinely
submitted to the OCIO for evaluation. However, the POA&M did not follow the color scheme
established by the guide. The OCIO provided evidence to remediate this issue with the response
to the draft audit report.

NIST SP 800-53 Evaluation
We evaluated the degree to which a subset of the IT security controls outlined in NIST SP 800-
53 were implemented for LAN/WAN. Although the majority of the tested security controls have
been successfully implemented, one control was not fully satisfied. User workstation settings
related to unsuccessful login attempts do not comply with OPM’s Information Security and
Privacy Policy Handbook.



                                              ii
                                                                 Contents
                                                                                                                                               Page

Audit Report..................................................................................................................................... i
Executive Summary ......................................................................................................................... i
Introduction ......................................................................................................................................1
Background ......................................................................................................................................1
Objectives ........................................................................................................................................1
Scope and Methodology ..................................................................................................................2
Compliance with Laws and Regulations..........................................................................................3
Results ..............................................................................................................................................4
        I. Information System Security Plan ......................................................................................4
       II. Certification and Accreditation Statement .........................................................................5
      III. FIPS 199 Analysis ..............................................................................................................6
     IV. Risk Assessment .................................................................................................................6
       V. Independent Security Control Testing ................................................................................7
     VI. Security Control Self-Assessment ......................................................................................7
    VII. Contingency Planning and Contingency Plan Testing .......................................................8
  VIII. Privacy Impact Assessment ................................................................................................9
     IX. Plan of Action and Milestones Process ..............................................................................9
      X. NIST SP 800-53 Evaluation .............................................................................................10
Major Contributors to this Report ..................................................................................................12
Appendix: The Office of the Chief Information Officer’s March 8, 2012 response to the draft
          audit report, issued February 13, 2012
                                        Introduction
On December 17, 2002, President Bush signed into law the E-Government Act (P.L. 107‑347),
which includes Title III, the Federal Information Security Management Act (FISMA). It requires
(1) annual agency program reviews, (2) annual Inspector General (IG) evaluations, (3) agency
reporting to the Office of Management and Budget (OMB) the results of IG evaluations for
unclassified systems, and (4) an annual OMB report to Congress summarizing the material
received from agencies. In accordance with FISMA, we audited the information technology (IT)
security controls related to the Office of Personnel Management’s (OPM) Local Area Network /
Wide Area Network (LAN/WAN) General Support System.

                                         Background
The LAN/WAN is one of OPM’s critical IT systems. As such, FISMA requires that the Office
of the Inspector General (OIG) perform an audit of IT security controls of this system, as well as
all of the agency’s systems on a rotating basis.

As a hardware and software infrastructure environment, the LAN/WAN supports a variety of
OPM information systems. OPM’s Office of the Chief Information Officer (OCIO) is the
organization responsible for the maintenance and operations of the LAN/WAN. The OCIO is
also responsible for the software development and maintenance of some minor applications that
reside on the general support system. The hardware supporting those systems is housed at
OPM’s Washington, D.C.; Macon, Georgia; and Boyers, Pennsylvania facilities.

This was our second audit of the security controls surrounding the LAN/WAN. All
recommendations issued as part of the previous audit were closed prior to the start of this audit.
We discussed the results of our audit with OCIO representatives at an exit conference.

                                          Objectives
Our objective was to perform an evaluation of the security controls for the LAN/WAN to ensure
that OCIO officials have implemented IT security policies and procedures in accordance with
standards established by FISMA, the National Institute of Standards and Technology (NIST), the
Federal Information System Controls Audit Manual (FISCAM) and OPM’s OCIO.

OPM’s IT security policies require managers of all major information systems to complete a
series of steps to (1) certify that their system’s information is adequately protected and (2)
authorize the system for operations. The audit objective was accomplished by reviewing the
degree to which a variety of security program elements have been implemented for the
LAN/WAN, including:

•   Certification and Accreditation Statement;
•   FIPS 199 Analysis;
•   Information System Security Plan;
•   Risk Assessment;
•   Independent Security Control Testing;
•   Security Control Self-Assessment;

                                                 1
•   Contingency Planning and Contingency Plan Testing;
•   Privacy Impact Assessment;
•   Plan of Action and Milestones Process; and
•   NIST Special Publication (SP) 800-53 Security Controls.

                                 Scope and Methodology
This performance audit was conducted in accordance with Government Auditing Standards,
issued by the Comptroller General of the United States. Accordingly, the audit included an
evaluation of related policies and procedures, compliance tests, and other auditing procedures
that we considered necessary. The audit covered FISMA compliance efforts of OCIO officials
responsible for the LAN/WAN, including IT security controls in place as of January 2012.

We considered the LAN/WAN internal control structure in planning our audit procedures. These
procedures were mainly substantive in nature, although we did gain an understanding of
management procedures and controls to the extent necessary to achieve our audit objectives.

To accomplish our objective, we interviewed representatives of OPM’s OCIO division and other
individuals with OCIO security responsibilities. We reviewed relevant OPM IT policies and
procedures, federal laws, OMB policies and guidance, and NIST guidance. As appropriate, we
conducted compliance tests to determine the extent to which established controls and procedures
are functioning as required.

Details of the security controls protecting the confidentiality, integrity, and availability of the
LAN/WAN are located in the “Results” section of this report. Since our audit would not
necessarily disclose all significant matters in the internal control structure, we do not express an
opinion on the LAN/WAN system of internal controls taken as a whole.

The criteria used in conducting this audit include:

•   OPM Information Security and Privacy Policy Handbook;
•   OMB Circular A-130, Appendix III, Security of Federal Automated Information Resources;
•   E-Government Act of 2002 (P.L. 107-347), Title III, Federal Information Security
    Management Act of 2002;
•   The Federal Information System Controls Audit Manual;
•   NIST SP 800-12, An Introduction to Computer Security;
•   NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal Information
    Systems;
•   NIST SP 800-30, Risk Management Guide for Information Technology Systems;
•   NIST SP 800-34, Contingency Planning Guide for Information Technology Systems;
•   NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems;
•   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
    Systems;
•   NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories;

                                                  2
•   NIST SP 800-84, Guide to Test, Training, and Exercise Programs for IT Plans and
    Capabilities;
•   Federal Information Processing Standards Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems; and
•   Other criteria as appropriate.

In conducting the audit, we relied to varying degrees on computer-generated data. Due to time
constraints, we did not verify the reliability of the data generated by the various information
systems involved. However, nothing came to our attention during our audit testing utilizing the
computer-generated data to cause us to doubt its reliability. We believe that the data was
sufficient to achieve the audit objectives. Except as noted above, the audit was conducted in
accordance with generally accepted government auditing standards issued by the Comptroller
General of the United States.

The audit was performed by the OPM Office of the Inspector General, as established by the
Inspector General Act of 1978, as amended. The audit was conducted from November 2011
through January 2012 in OPM’s Washington, D.C. office. This was our second audit of the
security controls surrounding the LAN/WAN.

                    Compliance with Laws and Regulations
In conducting the audit, we performed tests to determine whether OCIO management of the
LAN/WAN is consistent with applicable standards. Nothing came to our attention during this
review to indicate that the OCIO is in violation of relevant laws and regulations.




                                               3
                                            Results
I. Information System Security Plan
   Federal agencies must implement for each information system the security controls outlined
   in NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
   Systems. NIST SP 800-18 Revision 1, Guide for Developing Security Plans for Federal
   Information Systems, requires that these controls be documented in an Information System
   Security Plan (ISSP) for each system, and provides guidance for doing so.

   The ISSP for the LAN/WAN was created using a template that is outlined in NIST SP 800-
   18. The ISSP contains the majority of the elements outlined by NIST. However, the ISSP
   does not document minor systems owned and operated by the LAN/WAN. Also, the ISSP
   does not contain details of the interconnections between the LAN/WAN and other systems.

      a) Minor System Documentation
          The OCIO owns and is responsible for the daily operation and security of a variety of
          minor applications that reside on the LAN/WAN. This list includes, but is not limited
          to, the email system, voice over IP telephone system, Blackberry servers, and the
          Remedy help desk tracking system. However, these systems are not documented in
          the LAN/WAN ISSP. The ISSP also does not discuss any security controls that are
          specific or unique to any of those systems.

          NIST SP 800-18, Guide for Developing Security Plans for Federal Information
          Systems, states that agencies must “ensure that the security requirements of minor
          applications are addressed as part of the system security plan for the applicable
          general support systems.” The NIST guide also states that “security controls specific
          to the minor application should be documented in the system security plan as an
          appendix or paragraph.”

          Failure to appropriately document minor systems and the related security controls in
          the ISSP increases the risk that these systems are overlooked in the scope of the
          Authorization process and any subsequent security control testing.

          Recommendation 1
          We recommend that the OCIO document all minor applications and the security
          controls applicable to each one in the LAN/WAN ISSP.

          OCIO Response:
          “Network Management – Network Security (NM-NS) concurs with the OIG finding
          and Plan of Action and Milestones (POA&M) item FY12-Q2-LANWAN-287 was
          created and added to the Network Management – Network Security POA&M list.”




                                                4
           OIG Reply:
           As part of the audit resolution process, we recommend that OCIO provide Internal
           Oversight and Compliance (IOC) with evidence supporting the remediation of the
           recommendation.

       b) External Interconnections
           The LAN/WAN has interconnections with several systems owned by external
           entities. However, the details of these external interfaces are not disclosed in the
           ISSP as required by NIST SP 800-18. Specifically, the LAN/WAN ISSP does not
           detail the following information about each interfacing system: name, organization,
           type of interconnection, authorizations, dates of agreement, Federal Information
           Processing Standards (FIPS) 199 category, Certification and Accreditation (C&A)
           status, and name and title of authorizing official.
           Recommendation 2
           We recommend that the OCIO revise the LAN/WAN ISSP to include identifiers of
           the external systems that interconnect with the general support system (name,
           organization, type of interconnection, authorizations, dates of agreement, FIPS 199
           category, C&A status, and name and title of authorizing official).

           OCIO Response:
           “NM-NS concurs with the OIG finding and Plan of Action and Milestones
           (POA&M) item FY12-Q2-LANWAN-289 was created and added to the Network
           Management – Network Security POA&M list.”

           OIG Reply:
           As part of the audit resolution process, we recommend that OCIO provide IOC with
           evidence supporting the remediation of the recommendation.

II. Certification and Accreditation Statement
    A security C&A of the LAN/WAN was completed in June 2010.

    OPM’s IT Security Officer reviewed the LAN/WAN C&A package and signed the system’s
    certification package on June 21, 2010. The system’s owner signed the accreditation
    statement and authorized the continued operation of the system on June 16, 2010.

    NIST SP 800-37, Guide for the Security Certification and Accreditation of Federal
    Information Systems, provides guidance to federal agencies in meeting security accreditation
    requirements.

    The OCIO’s IT Security and Privacy group created and published guidance for preparing and
    conducting C&A’s in April 2011. These policies and procedures are now in effect for all
    OPM systems. While the LAN/WAN C&A was appropriately conducted in accordance with
    the guidance available in 2010, we suggest that the system owners review OPM’s new C&A

                                                 5
    methodology and conduct a gap analysis to ensure that they are prepared to conduct their
    2013 C&A in accordance with the new requirements.

    Although the LAN/WAN C&A was generally conducted in compliance with NIST
    requirements, the LAN/WAN authorization to operate was signed by the system owner prior
    to the certification package being signed by the Chief Information Security Officer (CISO).
    The OPM Security Assessment and Authorization Guide states that “The CISO reviews the
    package and makes an overall assessment. The CISO then produces the authorization
    recommendation letter, which is attached to the package and forwards to the AO
    [Authorizing Official] for the final approval decision. The AO will issue an authorization
    decision (ATO, Denial of Authorization to Operate, or Limited Authorization to Operate)
    based on a review of the package, and the CISO recommendation.” The OCIO should ensure
    that the guidelines set forth in the OPM Security Assessment and Authorization Guide are
    followed during the next LAN/WAN Authorization in 2013.

III. FIPS 199 Analysis
    Federal Information Processing Standards (FIPS) Publication 199, Standards for Security
    Categorization of Federal Information and Information Systems, requires federal agencies to
    categorize all federal information and information systems in order to provide appropriate
    levels of information security according to a range of risk levels.

    NIST SP 800-60 Volume II, Guide for Mapping Types of Information and Information
    Systems to Security Categories, provides an overview of the security objectives and impact
    levels identified in FIPS Publication 199.

    The LAN/WAN ISSP categorizes information processed by the system and its corresponding
    potential impacts on confidentiality, integrity, and availability. The LAN/WAN is
    categorized with a moderate impact level for confidentiality, moderate for integrity, moderate
    for availability, and an overall categorization of moderate.

    The security categorization of the LAN/WAN appears to be consistent with FIPS 199 and
    NIST SP 800-60 requirements, and we agree with the categorization of moderate.

IV. Risk Assessment
    A risk assessment is used as a tool to identify security threats, vulnerabilities, potential
    impacts, and probability of occurrence. In addition, a risk assessment is used to evaluate the
    effectiveness of security policies and recommend countermeasures to ensure adequate
    protection of information technology resources.

    NIST SP 800-30, Risk Management Guide for Information Technology Systems, offers a
    nine step systematic approach to conducting a risk assessment that includes: (1) system
    characterization; (2) threat identification; (3) vulnerability identification; (4) control analysis;
    (5) likelihood determination; (6) impact analysis; (7) risk determination; (8) control
    recommendation; and (9) results documentation.



                                                     6
    A risk assessment was conducted for the LAN/WAN in May 2010 that adequately addresses
    the elements outlined in the NIST guidance.

V. Independent Security Control Testing
    A security control assessment was completed for the LAN/WAN in May 2010 as a part of the
    system’s C&A process. The security assessment was conducted by another government
    agency, the Federal Aviation Administration, which was operating independently from the
    OCIO. We reviewed the controls included in the scope of this test to ensure that they
    included a review of the appropriate management, operational, and technical controls
    required for a system with a “moderate” security categorization according to NIST SP 800-
    53 Revision 3, Recommended Security Controls for Federal Information Systems.

    The security assessment report labeled each security control as fully in place, partially in
    place, not in place, or not applicable. Nothing came to our attention to indicate that the
    security controls of the LAN/WAN have not been adequately tested by an independent
    source. However, as mentioned in section I above, minor applications have not been
    documented in the LAN/WAN ISSP, and therefore it is not possible to confirm that the scope
    of the independent testing included all minor applications operated by the OCIO. The OCIO
    needs to ensure that the minor systems owned and operated by the LAN/WAN are included
    in the scope of the next C&A and fully tested by an independent entity.

VI. Security Control Self-Assessment
    FISMA requires that the IT security controls of each major application owned by a federal
    agency be tested on an annual basis. In the years that an independent security assessment is
    not being conducted on a system, the system’s owner must conduct an internal self-
    assessment of security controls.

    The OCIO conducted a self-assessment of the system in August 2011. The assessment
    included a review of the relevant management, operational, and technical security controls
    outlined in NIST SP 800-53 Revision 3. However, there is no indication that the security
    controls of minor applications within the LAN/WAN are tested annually.

    Recommendation 3
    We recommend that the OICO test a subset of the security controls for minor systems
    annually as part of the self-assessment.

    OCIO Response:
    “NM-NS concurs with the OIG finding and has created POA&M item FY12-Q2-
    LANWAN-296 and added the item to the Network Management – Network Security
    POA&M list.”




                                                  7
     OIG Reply:
     As part of the audit resolution process, we recommend that OCIO provide IOC with evidence
     supporting the remediation of the recommendation.

VII. Contingency Planning and Contingency Plan Testing
     NIST SP 800-34, Contingency Planning Guide for IT Systems, states that effective
     contingency planning, execution, and testing are essential to mitigate the risk of system and
     service unavailability. OPM’s security policies require all major applications to have viable
     and logical disaster recovery and contingency plans, and that these plans be annually
     reviewed, tested, and updated.

     Contingency Plan
     The LAN/WAN contingency plan documents the functions, operations, and resources
     necessary to restore and resume LAN/WAN operations when unexpected events or disasters
     occur. The LAN/WAN contingency plan closely follows the format outlined by NIST SP
     800-34 and contains a majority of the suggested elements.

     The scope of the LAN/WAN contingency plan indicates that it is classified as a high impact
     system. However, as mentioned above, the security categorization documented in the ISSP
     identifies the LAN/WAN as a “moderate” system. This inconsistency increases the risk that
     the scope of security control or contingency plan testing will be inappropriate.

     Recommendation 4
     We recommend that the OCIO review the contingency plan and the ISSP and address this
     inconsistency.

     OCIO Response:
     “NM-NS concurs with the OIG finding and has updated the LAN/WAN Information
     System Contingency Plan (ISCP). The document is enclosed with this memo.”

     OIG Reply:
     We have reviewed the updated contingency plan for LAN/WAN and determined that it
     addresses the inconsistency related to the security categorization of LAN/WAN; no further
     action is required.

     Contingency Plan Test
     NIST SP 800-34, Contingency Planning Guide for Information Technology, provides
     guidance for testing contingency plans and documenting the results. Contingency plan
     testing is a critical element of a viable disaster recovery capability.

     The OCIO participates in the annual Data Center disaster recovery test and also performs
     failover testing on Exchange 2007, Blackberry Enterprise System, Outlook Web Access, and
     agency file systems. The testing documentation includes the majority of elements suggested

                                                   8
      by NIST SP 800-84. During the fiscal year 2011 FISMA audit, we documented that disaster
      recovery tests are not coordinated between OPM’s various general support systems. This
      continues to be an issue, and the existing audit recommendation can be tracked in OIG audit
      report number 4A-CI-00-11-009.

VIII. Privacy Impact Assessment
      FISMA requires agencies to perform a screening of federal information systems to determine
      if a Privacy Impact Assessment (PIA) is required for that system. OMB Memorandum
      M-03-22 outlines the necessary components of a PIA. The purpose of the assessment is to
      evaluate any vulnerabilities of privacy in information systems and to document any privacy
      issues that have been identified and addressed.

      The OCIO completed a Privacy Threshold Analysis (PTA) of the LAN/WAN and determined
      that a PIA was not required for this system because it does not contain personally identifiable
      information (PII). The assessment concluded that although several applications residing on
      the LAN/WAN servers contain PII, the OCIO staff supporting the LAN/WAN does not have
      access to this data.

      However, the minor systems that are part of the LAN/WAN have not been subject to a PTA
      and it is unknown whether any of those systems use or store PII. The OPM Privacy Impact
      Assessment Guide states that “all OPM IT systems must have a PTA. If the PTA reveals that
      the system collects no information in identifiable form, for example, the Privacy Program
      Manager will indicate in the PTA review that no PIA is required. The PTA must be
      incorporated into the system’s certification and accreditation (C&A) package.”

      Recommendation 5
      We recommend that OCIO conduct PTAs for all minor applications residing on the
      LAN/WAN.

      OCIO Response:
      “NM – NS concurs with the OIG finding and has created POA&M FY12-Q2-LANWAN-
      288 and added the POA&M to the Network Management – Network Security POA&M
      list.”

      OIG Reply:
      As part of the audit resolution process, we recommend that OCIO provide IOC with evidence
      supporting the remediation of the recommendation.

 IX. Plan of Action and Milestones Process
      A Plan of Action and Milestones (POA&M) is a tool used to assist agencies in identifying,
      assessing, prioritizing, and monitoring the progress of corrective efforts for IT security
      weaknesses. OPM has implemented an agency-wide POA&M process to help track known
      IT security weaknesses associated with the agency’s information systems.


                                                    9
   The OIG evaluated the LAN/WAN POA&M and verified that it follows the format of OPM’s
   standard template, and has been routinely submitted to the OCIO IT Security and Privacy
   Group for evaluation. We also determined that the POA&M contained action items for all
   security weaknesses identified through various security control tests and audits. However,
   the LAN/WAN POA&M color scheme does not follow the OPM POA&M Standard
   Operating Procedure (SOP). OPM’s POA&M SOP states that POA&Ms are to “use a color
   scheme where closed items are green, in-progress items are white, items with missed
   milestones that are delayed less than 90 days are yellow, and items with missed milestones
   that exceed 90 days are red.” There are several instances on the LAN/WAN POA&M where
   items are classified as ongoing or delayed but are highlighted in green, which indicates that
   they have been completed. Failure to follow OPM guidelines increases the likelihood that
   POA&M items are incorrectly identified as complete when the weakness has not been
   properly remediated.

   Recommendation 6
   We recommend that OCIO review and update the status of all POA&M items and modify the
   color scheme to comply with OPM policy.

   OCIO Response:
   “NM – NS concurs with the OIG finding and has updated the LAN/WAN POA&M list to
   comply with the OPM color scheme policy. The document is enclosed with this memo.”

   OIG Reply:
   We have reviewed the updated LAN/WAN POA&M and determined that it now accurately
   follows the color scheme outlined in the OPM POA&M SOP; no further action is required.

X. NIST SP 800-53 Evaluation
   NIST SP 800-53 Revision 3, Recommended Security Controls for Federal Information
   Systems, provides guidance for implementing a variety of security controls for information
   systems supporting the federal government. As part of this audit, we evaluated whether a
   subset of these controls had been implemented for the LAN/WAN. We tested 48 of the
   almost 200 security controls outlined in NIST SP 800-53 Revision 3. We tested one or more
   controls from each of the following control families:

   •   Access Control                                •   Media Protection
   •   Audit and Accountability                      •   Physical and Environmental Protection
   •   Security Assessment and Authorization         •   Planning
   •   Configuration Management                      •   Risk Assessment
   •   Contingency Planning                          •   System and Services Acquisition
   •   Identification and Authentication             •   System and Communication Protection
   •   Incident Response                             •   Program Management
   •   Maintenance


                                                10
These controls were evaluated by interviewing individuals with LAN/WAN security
responsibilities, reviewing documentation and system screenshots, viewing demonstrations of
system capabilities, and conducting tests directly on the system.

Although it appears that the majority of NIST SP 800-53 security controls have been
successfully implemented for the LAN/WAN, one tested control was not fully satisfied.

a) AC-7 Unsuccessful Login Attempts
   The Windows settings related to unsuccessful login attempts do not comply with OPM
   policy. The Information Security and Privacy Policy Handbook requires that accounts
   must lock out users after 3 consecutive invalid access attempts and that accounts must be
   locked out until released by an administrator when the maximum number of invalid
   attempts is exceeded.
                                                                         ailure to abide by
   OPM Policy and enforce stricter account lockout settings increases the risk that an
   unauthorized individual could gain access to sensitive OPM resources and data.

   Recommendation 7
   We recommend that the OCIO modify Windows account lockout settings to comply with
   OPM policy.

   OCIO Response:
   “NM – NS concurs with the OIG finding and has created FY12-Q2-LANWAN-295 and
   added the POA&M to the Network Management – Network Security POA&M list.”

   OIG Reply:
   As part of the audit resolution process, we recommend that OCIO provide IOC with
   evidence supporting the remediation of the recommendation.




                                            11
                          Major Contributors to this Report
This audit report was prepared by the U.S. Office of Personnel Management, Office of Inspector
General, Information Systems Audits Group. The following individuals participated in the audit
and the preparation of this report:

•                   Group Chief
•                    , Senior Team Leader
•                       , Auditor-in-Charge




                                              12
                                            Appendix


                                  Memorandum
                                    Office of Personnel Management

                           March 8, 2012

MEMORANDUM TO:                             Chief, Information Systems Audit Group

           FROM:                     Chief, Network Management, Office of the Chief Information
                     Officer
             VIA:                  , Chief, Information Security Officer, Office of the Chief
                     Information Officer

        SUBJECT:     FY12 Audit of Local Area Network/Wide Area Network General Support
                     System

The OPM Office of the Inspector General (OIG) has recently completed the draft of their annual
FISMA audit of OPM’s information technology (IT) systems. The audit of the Office of
Personnel Management’s (OPM) Local Area Network/Wide Area Network (LAN/WAN)
uncovered 7 weaknesses that are listed with the Network Management remediation below.

OIG Finding – Information System Security Plan - Minor System Documentation
The Information System Security Plan (ISSP) contains the majority of the elements outlined by
NIST. However, the ISSP does not document minor systems owned and operated by the
LAN/WAN.

OIG Recommendation 1
We recommend that the OCIO document all minor applications and the security controls
applicable to each on in the LAN/WAN ISSP.

NM Remediation of Recommendation 1
Network Management – Network Security (NM-NS) concurs with the OIG finding and Plan of
Action and Milestones (POA&M) item FY12-Q2-LANWAN-287 was created and added to the
Network Management – Network Security POA&M list.
   • FY12-Q2-LANWAN-287
       Weaknesses: Update the ISSP to include documentation for minor systems/applications
       Milestones with Completion Date: The ISSP will be updated to reflect ownership and
       security controls testing for any minor systems on the GSS by 8/31/2012 in accordance
       with the OCIO/ITSP schedule of updates.

OIG Finding – Information System Security Plan - External Interconnections
The ISSP does not contain details of the interconnections between the LAN/WAN and other
systems.

                                                13
OIG Recommendation 2
We recommend that the OCIO revise the LAN/WAN ISSP to include identifiers of the external
systems that interconnect with the general support system (name, organization, type of
interconnection, authorizations, dates of agreement, FIPS 199 category, C&A status, name and
title of authorizing official).

NM Remediation of Recommendation 2
NM-NS concurs with the OIG finding and Plan of Action and Milestones (POA&M) item FY12-
Q2-LANWAN-289 was created and added to the Network Management – Network Security
POA&M list.
   • FY12-Q2-LANWAN-289
     Weaknesses: Interconnections section does not provide sufficient details concerning
     external interfaces. OIG recommends OCIO revise the LAN/WAN ISSP to include
     identifiers of the external systems that interconnect with the general support system
     (name, organization, type of interconnection, authorizations, dates of agreement, FIPS
     199 category, C&A status, name and title of authorizing official).
     Milestones with Completion Dates: Include details about interconnections as part the
     ISSP update - 8/31/2012.

OIG Finding – Security Control Self-Assessment
The OCIO conducted a self-assessment of the system in August 2011. The assessment included
a review of the relevant management, operations, and technical security controls outlined in
NIST SP 800-53 Revision 3. However, there is no indication that the security controls of minor
applications within the LAN/WAN are tested annually.

OIG Recommendation 3
We recommend that the OCIO test a subset of the security controls for minor systems annually
as part of the self-assessment.

NM Remediation of Recommendation 3
NM-NS concurs with the OIG finding and has created POA&M item FY12-Q2-LANWAN-296
and added the item to the Network Management – Network Security POA&M list.
   • FY12-Q2-LANWAN-296
       Weaknesses: The OCIO conducted a self-assessment of the system in August 2011. The
       assessment included a review of the relevant management, operations, and technical
       security controls outlined in NIST SP 800-53 Revision 3. However, there is no indication
       that the security controls of minor applications within the LAN/WAN are tested annually.
       Milestones with Completion Dates: Test a subset of the security controls for minor
       systems as part of the self-assessment by 8/31/12.

OIG Finding – Contingency Plan
The scope of the LAN/WAN contingency plan indicates that it is classified as a high impact
system. However, as mentioned above, the security categorization documented in the ISSP
identifies the LAN/WAN as a “moderate” system. This inconsistency increases the risk that the
scope of security control or contingency plan testing will be inappropriate.

                                              14
OIG Recommendation 4
We recommend that the OCIO review the contingency plan and the ISSP and address this
inconsistency.

NM Remediation of Recommendation 4
NM-NS concurs with the OIG finding and has updated the LAN/WAN Information System
Contingency Plan (ISCP). The documented is enclosed with this memo.

OIG Finding – Privacy Impact Assessment
The OCIO completed a Privacy Threshold Analysis (PTA) of the LAN/WAN and determined
that a PTA of the LAN/WAN was not required for this system because it does not contain
personally identifiable information (PII). The assessment concluded that although several
applications residing on the LAN/WAN servers contain PII, the OCIO staff supporting the
LAN/WAN does not have access to this data. However, the minor systems that are part of the
LAN/WAN have not been subject to a PTA and it is unknown whether any of those systems use
or store PII. The OPM Privacy Impact Assessment Guide states that “all OPM IT systems must
have a PTA. If the PTA reveals that the system collects no information in identifiable form, for
example, the Privacy Program Manager will indicate in the PTA review that no PIA is required.
The PTA must be incorporated into the system’s certification and accreditation (C&A) package.”

OIG Recommendation 5
We recommend that OCIO conduct PTAs for all minor applications residing on the LAN/WAN.

NM Remediation of Recommendation 5
NM – NS concurs with the OIG finding and has created POA&M FY12-Q2-LANWAN-288 and
added the POA&M to the Network Management – Network Security POA&M list.
   • POA&M FY12-Q2-LANWAN-288
       Weaknesses: Conduct Privacy Threshold Analyses (PTAs) for minor
       systems/applications.
       Milestones with Completion Dates: PTA’s will be conducted on minor applications
       once they’ve been identified – 8/31/2012.

OIG Finding – Plan of Action and Milestones Process
The LAN/WAN Plan of Action and Milestones (POA&M) color scheme does not follow the
OPM POA&M Standard Operating Procedure (SOP). OPM’s POA&M SOP states that the
POA&Ms are to “use a color scheme where closed items are green, in-progress items are white,
items with missed milestones that are delayed less than 90 days are yellow, and items with
missed milestones that exceed 90 days are red.” There are several instances on the LAN/WAN
POA&M where items are classified as ongoing or delayed but are highlighted in green, which
indicates that they have been completed. Failure to follow OPM guidelines increases the
chances that POA&M items are incorrectly identified as complete where the weakness has not
been properly remediated.




                                              15
OIG Recommendation 6
We recommend that OCIO review and update the status of all POA&M items and modify the
color scheme to comply with OPM policy.

NM Remediation of Recommendation 6
NM – NS concurs with the OIG finding and has updated the LAN/WAN POA&M list to comply
with the OPM color scheme policy. The document is enclosed with this memo.

OIG Finding – NIST SP 800-53 Evaluation AC-7, Unsuccessful Login Attempts
The Windows settings related to unsuccessful login attempts do not comply with OPM policy.
The Information Security and Privacy Policy Handbook requires that accounts must lock out
users after 3 consecutive invalid access attempts and that accounts must be locked out until
released by an administrator when the maximum number of invalid attempts is exceeded. The
LAN/WAN Group P9olcy Object enforces account lock out after 5 unsuccessful attempts and
automatic reset after 15 minutes. Failure to abide by OPM Policy and enforce stricter account
lockout settings increase the risk that an authorized individual could gain access to sensitive
OPM resources and data.

OIG Recommendation 7
We recommend that the OCIO modify Windows account lockout settings to comply with OPM
Policy.

NM Remediation of Recommendation 7
NM – NS concurs with the OIG finding and has created FY12-Q2-LANWAN-295 and added the
POA&M to the Network Management – Network Security POA&M list.
  • FY12-Q2-LANWAN-295
      Weaknesses: The Windows settings related to unsuccessful login attempts do not
      comply with OPM policy. The information Security and Privacy Policy Handbook
      requires that accounts must lock out users after 3 consecutive invalid access attempts and
      that accounts must be locked out until released by an administrator when the maximum
      number of invalid attempts is exceeded.

       Failure to abide by OPM Policy and enforce stricter account lockout settings increases
       the risk that an unauthorized individual could gain access to sensitive OPM resources and
       data.
       Milestones with Completion Dates: Recommend that OCIO modify Windows account
       lockout settings to comply with OPM Policy.
       • Submit Change Request to address findings by 3/2/12
       • Draft email for agency-wide notice of change by 2/27/12
       • Send agency-wide notice by 3/16/12
       • Implement GPO settings and capture screen shots by 3/23/12
       • Draft WCP, submit with artifacts to ITSP by 3/31/12




                                               16
